CREDIT CARD AGREEMENT & DISCLOSURE STATEMENT
This Agreement applies to the VISA and/or MasterCard credit Card and Credit Devices issued to
you by TIB, National Association, Georgia Branch, although the name on your Card may be that of
a different financial institution. Any Card or Credit Device issued to you by us remains our
property and must be returned to us or to anyone we designate, upon request. Retaining, signing or
using, or permitting others to use, the Card or Credit Device shall constitute the equivalent of
signing this Agreement and such retaining, signing or using means you agree to be bound by the
terms of this Agreement. The Application you submitted for the Account is hereby incorporated
into and made a part of this Agreement. This Agreement begins on the earlier of (i) the date you
sign or otherwise submit an Application that is approved by us or (ii) the first date you or someone
authorized by you uses the Account in a transaction that we approve (in NY, the first date you or
someone authorized by you signs a sales slip or memorandum or the first date that another
document is issued to you or someone authorized by you as evidence of a transaction on the
Account that we approve).
Definitions. In addition to other terms that may be defined in this Agreement, the following terms
when used in this Agreement have the following definitions:
1.

"Account" means the open-end revolving credit account established pursuant to your
Application and this Agreement to which charges are posted based on use of a Card,
information from a Card, Credit Device, or any other device or procedure by which the
Account may be accessed in the future.

2.

"Agreement" means this Credit Card Agreement plus the Disclosure Statement, which is
contained in the same envelope as, and folded together with, this Credit Card Agreement
and which provides information on the periodic rate, the Annual Percentage Rate (APR), the
Interest Charge and balance on which it is determined, any Other Charges, cash advance
fees, balance transfer fees, and any grace period applicable to the Account. The Disclosure
Statement is incorporated herein by reference as if repeated verbatim herein. If any
provision of this Credit Card Agreement is inconsistent with any provision of the Disclosure
Statement, the provision of the Disclosure Statement controls.

3.

"Application" means the application for credit you completed and returned to the
Sponsoring Bank to request that we extend credit to you under the Account.

4.

"Authorized User" means any person you permit to use the Account or who has apparent
authority to use the Account.

5.

"Card" means the VISA and/or MasterCard credit card(s) issued to you by us, and any
future credit card(s) issued to you in connection with the Account. If you applied for more
than one type of Card, this Agreement is a separate Agreement for each Card.

6.

“Cash Advance” means the amount requested by you and advanced to you by any method
approved by us according to the terms of this Agreement in cash or cash equivalent items
(including, but not limited to, money orders, travelers checks, lottery tickets, casino chips,
vouchers redeemable for cash, or racetrack wagers).

7.

“Cash Advance Limit” means (i) ten percent (10%) of the Credit Limit for business use
accounts and (ii) 50 percent (50%) of the Credit Limit for consumer use accounts.

8.

"Credit Device" means any device such as a blank check, payee-designated check,
"convenience" or "special" check, blank draft or other order, or any other device or item
which may, at our discretion and pursuant to procedures we may adopt from time to time, be
issued by us to you to access the Account.

9.

"Credit Limit" means the total dollar amount of the Account which we approved and which
you may borrow against according to the terms of this Agreement.

10.

"Index" means the Prime Rate (the base rate on corporate loans posted by at least 70% of the
10 largest U.S. banks) published in the Wall Street Journal on the 25th day of each month or
the business day preceding the 25th day if that day falls on a weekend or a holiday
recognized by the Board of Governors of the Federal Reserve System. Changes in the Index
will take effect beginning with the first billing cycle in the month following a change in the
Index. Increases or decreases in the Index will cause the APR and periodic rate to fluctuate,
resulting in increased or decreased Interest Charges on the Account.

11.

“Other Charges” means the charges listed in the section of this Agreement with such
caption.

12.

"We," "us," and "our" mean TIB, National Association, Georgia Branch, 1550 N. Brown
Road, Suite 150, Lawrenceville, Georgia 30043.

13.

"You" and "your" refer to each person who signed an application for the Account, each
person who signs or uses the Card or a Credit Device, and any Authorized User.

Purchases, Cash Advances and Balance Transfers; Cash Advance Limit. You request and
authorize us to extend credit to you under the Account as follows: (1) goods and services may be
purchased or leased by use of the Card from any seller or vendor who honors the Card
("Purchases"); (2) "Cash Advances" may be obtained up to, but not in excess of, the Cash Advance
Limit (a) when you complete a written request on a form furnished to you by us or any other
financial institution we approve; (b) using the Card at any automatic teller machine which accepts
the Card; or (c) using a Credit Device to pay for Purchases or, when allowed, to receive cash. (3)
“Balance Transfers” may be obtained when you complete a request. We are not responsible for
any person or entity refusing to accept the Card or any Credit Device for Purchases or Cash
Advances.
Promise to Pay. You promise to pay us for all Purchases made by you and for all Cash Advances
and Balance Transfers received by you except as limited in this Agreement regarding your liability
for unauthorized use of a Card or Credit Device. You shall be jointly and severally liable for all
amounts due from you under this Agreement for Purchases, Cash Advances, Balance Transfers,
Interest Charges, and Other Charges.
Special Checks. If Special Checks are issued from time to time for use with your Account, you
may obtain what is deemed to be a Cash Advance under the Account by writing a check. Each
Special Check must be in a form we have issued to you and must be imprinted with your name and
the Account number. Special Checks may be used only by a person whose name is printed on the
Check and must be completed and signed in the same way as a regular personal check. You agree
not to use your Special Checks to purchase or carry securities or to pay amounts you owe us under
this Agreement. We are not obligated to pay a Special Check (a) if your resulting Account balance
would exceed the Credit Limit, (b) if the Check is dated more than 6 months before it was
presented to us for payment, (c) if a Special Check or Card has been reported lost or stolen, (d) if
you are in default under this Agreement or a loan agreement with another lender, (e) if you or we
have terminated your ability to receive further credit under this Agreement, (f) if you are insolvent,

G-17537

or (g) if your Card has expired. The amount of each Special Check paid by us, even if we are not
obligated to pay it, will be a Cash Advance. Checks paid by us will not be returned to you with
your monthly billing statement, but information about them will appear on such statement. You
agree you will promptly review your monthly billing statement to discover any unauthorized or
altered Special Checks. You cannot put a stop-payment order on a Special Check.
Refunds and Adjustments. Any refund, adjustment, or credit allowed by any seller or other
person or entity shall not be by cash but rather by a credit to the Account appearing on your
monthly billing statement.
Monthly Billing Statements. Each month we will send you a monthly billing statement reflecting
all Purchases, Cash Advances, Balance Transfers, Interest Charges and Other Charges pursuant to
this Agreement for the prior monthly period. Such statements shall be deemed correct and
accepted by you unless you notify us to the contrary in writing within 60 days of our mailing such
statement to you.
Payments on the Account. Your payment under the Account must be made on or before the
"Payment Due Date" reflected on your monthly billing statement. Your payment must be either the
full amount billed or, at your option, an installment equal to at least the required "Minimum
Payment Due" stated on the billing statement. The minimum payment will equal the "New
Balance" shown on your statement if that amount is less than $25. If the New Balance exceeds
$25, the minimum payment will equal the greater of 3% of the New Balance or $25, plus the entire
portion of the New Balance in excess of your Credit Limit, plus any amount past due.
Payments must be made in U.S. dollars drawn on a U.S. bank. Transactions in foreign currencies
will be converted to U.S. dollars at the exchange rate used at the time of the conversion. The
conversion may occur after the transaction date and the conversion rate may differ from the rate of
exchange in effect at the time of the transaction. You agree to pay the converted amount to us in
U.S. dollars, plus any charge for the conversion or processing that may be imposed.
All payments on the account must be made at the address shown on your monthly billing statement
and are considered to have been made on the date received at that address. If payment is made at
any location other than the designated address, credit for such payment may be delayed for up to 5
days. As allowed by law, we may accept payments marked "payment in full" (or words of similar
intent) without losing any of our rights to collect the full balance due under the Account and this
Agreement. We will apply your payments to the unpaid balance of the Account in the order and
manner we decide, in our sole discretion.
Late Payments and Increase in Rate. If you allow your Account to become 60 days past due, we
may increase your APR on all balances to a higher rate equal to the Index plus a margin of 15.99%
up to a maximum of 21%. This means if you fail to at least pay your required minimum monthly
payment for the periods stated above, your APR may increase; however, if your Rate is increased,
your Account may become eligible for a lower APR if you make timely payments for three
consecutive months.
Payment Holidays. At our option we may permit you from time to time to skip making the
Minimum Payment Due for a specified billing cycle (referred to as a "payment holiday"). Even if
you accept such a payment holiday, we will continue to assess Interest Charges on the unpaid
balance of the Account as disclosed in the Insert. Any payment holiday we permit will not affect
the terms of this Agreement. The terms of this Agreement remain in force regardless of whether
you accept a payment holiday.
Credit Limit; Cash Advance Limit. You agree not to use or permit others to use the Card,
information from the Card, or a Credit Device if such use would cause either (i) the balance of the
Account to exceed the Credit Limit we set from time to time or (ii) the balance of the outstanding
Cash Advances to exceed the Cash Advance Limit applicable to such Credit Limit. The initial
Credit Limit for the Account is shown on the material accompanying the Card before the Account
is used and will also be disclosed on each monthly billing statement for the Account. We may, at
our option, extend credit under the Account which exceeds the Credit Limit or the Cash Advance
Limit. If we do, you agree to immediately pay the excess which we advanced to you over either of
the applicable limits. We are not obligated to allow any Purchase, Cash Advance or Balance
Transfer which will exceed your Credit Limit or Cash Advance Limit, and if we do, we are not
obligated to do so at a later time. You agree we may change your Credit Limit (which will
automatically also change your Cash Advance Limit) or cancel the Account if you exceed the
Credit Limit or the Cash Advance Limit.
Transactions Made in Foreign Currencies. If a transaction is made in a foreign currency, we
and MasterCard International or VISA International, depending on which card is used, will convert
the transaction into a U.S. dollar amount. MasterCard and VISA will act in accordance with their
operating regulations or conversion procedures in effect at the time the transaction is processed.
Currently, their regulations and procedures provide that the currency conversion rate they use, to
determine the transaction amount in U.S. dollar, is either (a) a wholesale market rate, or (b) a
government-mandated rate in effect one day prior to the processing date. MasterCard and VISA
increase this conversion rate by one percent (1%) and keep this increase as compensation for
performing the currency conversion service. We will charge you two percent (2%) of the U.S.
dollar amount of the transaction converted from a foreign currency. The currency conversion rate
calculated in this manner that is in effect on the processing date may differ from the rate in effect
on the transaction date or posting date.
Other Charges. You agree we may assess, in addition to the Interest Charge, the Other Charges
below which charges will be earned when assessed and are not subject to refund or rebate. The
following fees may be added, as applicable, to the Account and treated as a Purchase as indicated
on the Insert:
1.

Annual Fee. A non-refundable annual membership fee may be charged to the Account
during the month following issuance or re-issuance of the Card and will be posted annually
on the anniversary date of the opening of the Account. The annual membership fee is not
refundable even if the Account is closed for any reason by either you or us, and the fee is a
condition of maintaining the Account whether or not you use the Account by making
Purchases or receiving Cash Advances.

2.

Late Fee. If the minimum required payment is not received by the Payment Due Date for
that billing cycle, we may assess a $25 late charge on the Account.

3.

Returned Payment Fee. We will charge you $25 for each return by a bank or other
depository institution of a dishonored check, negotiable order of withdrawal or share draft
issued by you to us in connection with the Account. This fee will be in addition to all other
Interest Charges and Other Charges we may collect from you and is not subject to refund or
rebate.

4.

Cash Advance Fee. If you request a Cash Advance, in addition to the Interest Charge which
will accrue on the Cash Advance, you agree to pay a fee of three percent (3%) of the amount
of the Cash Advance subject to a minimum fee of $10.00.

5.

Balance Transfer Fee. If you request a Balance Transfer, in addition to the Interest Charge
which will accrue on the balance transfer, you agree to pay a fee of three percent (3%) of the
amount of the Balance Transfer subject to a minimum fee of $10.00

6.

Pay-by-Phone. If you request an agent assisted payment be made to your Account through
an electronic funds transfer, you agree to pay a fee of $10 in addition to the amount of the
payment.

7.

International Transactions Fee. Two percent (2%) of the U.S. dollar amount of the
transaction converted from a foreign currency.

8.

Supplemental Convenience Requests If you request supplemental copies of billing
statements, you will be charged $5 for each. We will not assess you this fee if you request a
billing statement for a billing error/inquiry that you may assert against us under applicable
law. If you request expedited delivery of a Card, you will be charged $25. If you make any
other Supplemental Convenience Requests, you agree to pay our reasonable charges for
such request in effect at that time.

Termination; Default. We may reduce the Credit Limit or terminate your ability to receive
further credit under this Agreement at any time without notice. You may terminate your ability to
receive further credit under this Agreement by giving us notice of termination and returning to us
all Cards and Credit Devices. Termination by you will be effective on the date we receive written
notice from you along with the Cards and Credit Devices (unless they are lost or stolen, in which
case you agree to sign an affidavit to that effect and stating that no credit received after the date of
loss or theft was authorized by you).
You will be in default under this Agreement if any of the following events occur: (1) you fail to
make the required payment when due; (2) you fail to perform or abide by any of your agreements
or obligations under this Agreement or any other loan agreement you have with us; (3) you become
insolvent (meaning your liabilities exceed your assets or you are unable to pay your debts as they
become due); (4) any action is taken by or against you under any bankruptcy or insolvency laws;
(5) any attachment or garnishment proceedings are initiated against you; (6) you die or are declared
incompetent; (7) we, in good faith, believe the prospect of your payment or performance under this
Agreement is impaired; or (8) you fail or refuse to provide current financial information to us when
we request it.
On any termination or default, regardless of any unused credit you may have under the Account, all
amounts you owe under the Account and this Agreement will become immediately due and
payable in full. You must also return to us all Cards and Credit Devices issued to you in
connection with the Account. Termination or default shall not release you from any obligation you
have incurred under this Agreement. After termination or default, your obligations and our rights
under this Agreement shall remain effective until the entire outstanding balance of the Account is
paid in full.
Attorneys Fees and Costs. To the extent permitted by law, you agree to pay our attorneys fees
and other costs we incur if you are in default and we hire an attorney who is not our salaried
employee to collect amounts you owe under the Account and this Agreement. Amounts you owe
for attorneys' fees will be added to the outstanding balance of the Account as a Purchase whether or
not your right to receive credit has terminated or you are in default.
Amendment to this Agreement. This Agreement, and the terms of the Account, may be amended
by us if we send you written notice of the amendment prior to its effective date as required by law.
As of the amendment's effective date, the change in terms will apply to the entire outstanding
balance of the Account as well as Purchases made and Cash Advances and Balance Transfers
received after the effective date of the amendment. If you do not agree to the amendment, your
only option is termination under this Agreement.
Venue and Jurisdiction of Lawsuits. The parties agree, consent and contract that the venue and
jurisdiction of any lawsuit brought by TIB, National Association to enforce this agreement or
collect any sum or sums of money due and owing under this agreement shall be in Dallas County,
Texas or any county contiguous to Dallas County, Texas.
The parties further agree that any action or cross action brought by a cardholder against TIB,
National Association regarding this contractual agreement shall be brought in Dallas County,
Texas or any county contiguous to Dallas County, Texas.
Governing Law; Severability. You agree that your obligations under this Agreement represented
by charges to the Account are contracted for and become binding when the sales drafts, credit card
slips, or other Credit Devices are accepted by us and we cause the holders of the same to be paid.
You agree that these events occur in Georgia. This Agreement is subject to federal law and, to the
extent not preempted by federal law, the laws of the State of Georgia (except to the extent that this
Agreement can and does vary from such rules or laws), without regard to conflict of laws
principals. If any provision of this Agreement conflicts with the law, you agree the provision will
be viewed as if it was amended to comply with the law. If that is not possible, then only the
provision that conflicts with the law will be deleted. The remaining provisions of this Agreement
will remain effective.
Credit Reports. You agree that we may obtain consumer credit reports from one or more credit
reporting agencies or others in connection with opening or maintaining the Account, increasing the
Credit Limit under the Account, or making any extension of credit to you under the Account. We
may also ask you for additional information in connection with the Account and request credit
reports to verify your current credit standing. You agree that we may release information to others,
such as credit reporting agencies, regarding the status and history of the Account. However, we are
not obligated to release any such information unless required by law.
We may report information about your Account to credit bureaus. Late payments, missed
payments, or other defaults on your Account may be reflected in your credit report. If you believe
that we have furnished any inaccurate information relating to your Account to any consumerreporting agency, you may notify us by phone or mail at 1-800-367-7576; Card Service Center, PO
Box 569120, Dallas, TX 75356. To help us respond to your notification, include your account
number, Social Security Number, the name of the consumer-reporting agency reflecting the
inaccurate information, and an explanation of why you believe the information is inaccurate. You
understand that you may also contact the appropriate consumer-reporting agency directly at the
appropriate address and toll-free number: Equifax, P.O. Box 740241, Atlanta, GA 30374,
800.685.1111; Trans Union, P.O. Box 1000, Chester, PA 19022, 800-916-8800; or Experian, P.O.
Box 2002, Allen, TX 75013, 888.397.3742.

Change in Marital Status. A change in marital status between any of you will not affect the
individual liability of any of you under this Agreement. Your liability for debt incurred after a
change in status does not end until all Cards and Credit Devices are returned to us, even if you give
us notice of the change in status and notice that further use by any person is unauthorized.
Notices. Notices given under this Agreement or relating to the Account will be effective only if
given in writing to us at TIB, National Association, P.O Box 569120, Dallas, Texas 75356-9120,
and to you at your last address shown on our records. You agree to notify us immediately if your
address changes from that shown on the application you submitted in connection with opening the
Account.
Liability for Unauthorized Use. If any Card is lost or stolen or otherwise may be used without
your permission (express or implied), you must immediately notify us orally or in writing at the
following phone number or address: 1-800-367-7576 or at TIB, National Association, P.O Box
569120, Dallas, Texas 75356-9120. If unauthorized use of a Card occurs before you notify us of
the loss, theft or unauthorized use, you may be liable up to a maximum amount of $50. If
unauthorized use of a Credit Device occurs, you may be liable for all of the unauthorized use.
State Law Disclosures. CA Residents: Interest is compounded on unpaid Interest Charges on
Purchases, Cash Advances and Balance Transfers. MD Residents: You have the right under
Section 12-510 of the Commercial Law Code to receive an answer to a written inquiry concerning
the status of your Account. NJ Residents: Because certain provisions of this Agreement are subject
to applicable laws, they may be void, unenforceable or inapplicable in some jurisdictions. None of
these provisions, however, is void, unenforceable or inapplicable in New Jersey.
YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.
What to do if you find a mistake on your statement.
If you think there is an error on your statement, write to us at TIB, National Association, Attn:
Dispute Department, 1550 North Brown Road, Suite 150, Lawrenceville, GA 30043 as soon as
possible.
In your letter, give us the following information:
* Account information: Your name and Account number.
* Dollar amount: The dollar amount of the suspected error.
* Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement and at least 3
business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What will happen after we receive your letter.
When we receive you letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error, we cannot try to collect the amount in
question, or report you as delinquent on the amount. The charge in question may remain on your
statement, and we may continue to charge you interest on that amount. While you do not have to
pay the amount in question, you are responsible for the remainder of your balance. We can apply
any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
1.
If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
2.
If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases.
If you are dissatisfied with the goods or services that you have purchased with your Credit Card,
and you have tried in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase. To use this right, all of the following must
be true:
1.

2.
3.

The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do
not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us
in writing at TIB, National Association, Attn: Dispute Department, 1550 North Brown
Road, Suite 150, Lawrenceville, GA 30043.
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

Disclosure Statement
The Credit Card Agreement & this Disclosure Statement constitute the Agreement for the Account.
CLASSIC & PREMIUM CARDS
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

14.90%

APR for Cash Advances

14.90%
16.90%
This APR may be applied if you allow your Account to become 60 days past due.

Penalty APR and When it Applies

How Long Will the Penalty Apply? If your APR is increased for the reason
stated above, the Penalty APR will apply until you make three consecutive
minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore/.

Fees
Annual Fee

Reward Card

Non-Reward Card

$35

None

Transaction Fees:
Balance Transfer
and Cash Advance

Either $10 or 3% of the amount of each balance transfer or cash advance, whichever is greater.

International
Transaction

2% of each transaction in U.S. dollars.

Penalty Fees:
Late Payment

Up to $25

Returned Payment

Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See our
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the account
agreement that will be provided to you before you begin using your new card.

The issuer and administrator of the credit card program is TIB, National Association. The information about the cost of the Card
described in this table is accurate as of July 1, 2021. This information may change after that date. To find out what may have changed,
call us at 800-367-7576 or write TIB, National Association, P.O. Box 569120, Dallas, Texas 75356-9120.

How Interest Charges are Determined & When They are Imposed
Interest Charges on the Account will be figured on each monthly billing statement by applying the periodic rate to the total Balance
Subject to Interest Charges. The periodic rate used to compute Interest Charges is disclosed above and is a monthly rate which, when
multiplied by 12, equals the APR disclosed above. If you obtain Cash Advances, Balance Transfers or elect to pay for Purchases in
installments, each periodic statement will include an Interest Charge. There is no minimum Interest Charge. In connection with Cash
Advances and Balance Transfers, the first monthly billing statement after you receive a Cash Advance or Balance Transfer will include
an Interest Charge from the date the transaction is posted to your Account. There is no period within which you may repay cash
advances or balance transfers in order to avoid an Interest Charge.
Interest Charges will not be imposed on purchases posted to your account in certain circumstances. For example, assuming that billing
cycles begin on the first day and end on the last day of each calendar month, and the month of June is the “current” billing cycle: if (1)
the purchase balance at the end of the preceding May billing cycle is paid in full by the payment due date (in June) for the May billing
cycle and (2) the purchase balance at the end of the June billing cycle is paid in full by its payment due date (in July), no Interest
Charges will be imposed on purchases posted to the account during June. However, if the purchase balance of the May billing cycle is
not paid in full by its payment due date in June, Interest Charges will be imposed on purchases posted to the account in June from the
date of such posting. If the June purchase balance is not paid in full by its payment due date in July, Interest Charges will be imposed
from the first day of the July billing cycle on, but only on, the portion of June purchases not paid by the payment due date in July.
Any portion of the New Balance appearing on a monthly billing statement (including Cash Advances, Balance Transfers, Purchases,
Interest Charge and Other Charges) which is not paid in full and credited to the Account by the “Payment Due Date” shown on that
statement becomes part of the “Previous Balance” on your next monthly billing statement.
All payments received by 5:00 p.m. during our normal business day at the address indicated on the monthly billing statement will be
credited to the Account as of the date of receipt of payment. If payment is made at any location other than such address, credit for the
payment may be delayed up to 5 days.
Method of Computing Balance Subject to Interest Charge
The Balance Subject to an Interest Charge is the sum of the “Average Daily Balance” for Purchases and the “Average Daily Balance”
for Cash Advances and Balance Transfers, computed as follows:
The Average Daily Balance for Purchases is computed by adding each day’s ending balance for the current billing cycle (less any
Interest Charge included therein and excluding any Cash Advances and Balance Transfers made during the current billing cycle), and
dividing the total of such balances by the number of days in the billing cycle. Such total will include Purchases and debit adjustments
made during the current billing cycle only if you have not paid in full the New Balance figure from the previous statement as indicated
by a “Payment” figure equal to or greater than the “Previous Balance” figure under the Summary of Transactions on the statement for
the current billing cycle.
The Average Daily Balance for Cash Advances and Balance Transfers is computed by adding each day’s outstanding balance of Cash
Advances and Balance Transfers charged to the Account during the current billing cycle, and dividing the total of such balances by the
number of days in the billing cycle.
If the Cash Advance and Balance Transfer portion of the New Balance and the Interest Charge applicable thereto are not paid in full
and credited to the Account by the “Payment Due Date” shown on the first monthly billing statement to which the Cash Advance and
Balance Transfer is billed, any balance remaining becomes a part of the “Previous Balance” on Cardholder’s next periodic statement
and is computed as part of the Average Daily Balance for Purchases.
Armed Forces Members and Dependents
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged
(other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). To hear this same disclosure and for a general description of your payment obligations
for this credit card account, please call us at 1-866-415-4842.

0255 – 4193 4974 8601 – 255C/255A (Rev. 07/21)

